0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Brief in Opposition in 20-1376, Michael
Abatti, et al. v. Imperial Irrigation District, was sent
via Next Day Service to the U.S. Supreme Court, and
via e-mail service to the following parties listed below,
this 26th day of May, 2021:
H. Christopher Bartolomucci
Schaerr I Jaffe LLP
1717 K Street NW
Suite 900
Washington, DC 20006
(202) 787-1060
cbartolom ucci@schaerr-jaffe.com
Counsel for Petitioner
Jennifer L. Meeker
Counsel of Record
Frederic A. Fudacz
Gina Nicholls
Nossaman LLP
777 S. Figueroa Street, 34th Floor
Los Angeles, CA 9001 7
(213) 612-7800
jmeeker@nossaman.com
Counsel for Respondent

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

; 8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

' Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

, Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 26, 2021.

Amy Triplett Morgan
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

0

-

[seal]

JOHN D. GALLAGHER
i

1owy Public, State of Ohio
My eommlsslon Expir0s
r ,.bri "'Y 14, 21., 13

